Audit Report

Office of Community Oriented Policing
Services Grants to the Blackfeet Tribal Business Council, Montana

Report No. GR-60-04-010


August 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Blackfeet Tribal Business Council (Council), Montana.  The purpose of the grants is to enhance community policing.  The Council was awarded a total of $2,615,662 to hire 17 new full time police officers, and to provide equipment and training for the police officers.

We reviewed the Council's compliance with six essential grant conditions and except for local match requirements, which were waived, and budgeting for local officer positions, we found weaknesses in each of the areas we tested:  hiring of additional officers, reimbursement requests, retention of officer positions, and community policing.  As a result of the deficiencies identified below, we question $1,173,045 in grant funds received and recommend an additional $597,465 be put to better use.1   Specifically we found:

The Council did not increase its police force by the number of officers funded by the COPS hiring grants.  In our judgment, the grantee is in violation of COPS' nonsupplanting requirement. 

	The Council charged unallowable and unsupported costs to TRGP Hiring Grant No. 1999HHWX0025, TRGP Equipment/Training Grant No. 1999HEWX0025, TRGP Hiring Grant No. 2000HHWX0031, TRGP Equipment/Training Grant No. 2000HEWX0071, TRGP Equipment/Training Grant No. 2001HEWX0054, and COPS in Schools (CIS) Grant No. 2002SHWX0671.

	The Council received reimbursements of grant funds in excess of costs incurred per the accounting records for TRGP Equipment/Training Grant No. 1999HEWX0025, and TRGP Equipment/Training Grant No. 2000HEWX0071.
 
	The Council has not made plans to retain any of the 17 grant funded officers.  Further, because the Council used its TRGP Hiring grants to supplant local funding, the positions funded by the TRGP Hiring grants will not be retained. 

	The Council has not implemented the community policing activities outlined in the grant applications. 

These items are discussed in detail in the Findings and Recommendations section of this report.  Our audit objectives, scope and methodology appear in Appendix I.   



Footnotes

The Inspector General Act of 1978 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.